Nos. 19-986
IN THE SUPREME COURT OF THE UNITED STATES
MARY LOU VOSBURGH
and JAKE MCHERRON,

Petitioners,

v.
BURNT HILLS – BALLSTON LAKE CENTRAL
SCHOOL DISTRICT, PATRICK MCGRATH,
TIMOTHY BRUNSON, and JOE SCALISE,
PROOF OF SERVICE

Respondents.

I, Nikolina Gurfinkel, do swear that on this date, March 3, 2020, as required by
Supreme Court Rule 29, I have served the enclosed BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by giving three true copies of same,
addressed to each individual respectively, and enclosed in a properly addressed
wrapper, to Federal Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
PHILLIP GEORDEE STECK
Counsel of Record
COOPER, ERVING & SAVAGE LLP
39 North Pearl Street, 4th Floor
Albany, New York 12207
(518) 449-3900
psteck@coopererving.com
Attorneys for Petitioners
That on the same date as above, I sent to this Court forty copies of the within BRIEF
IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI via Federal Express Overnight
Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me on this
3rd day of March, 2020.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

10943R

